NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




          Semiannual Report
            to the Congress
        October 1, 2004 – March 31, 2005
OIG Semiannual Report                                                        March 2005




             INSPECTOR GENERAL'S MESSAGE TO
            THE NCUA BOARD AND THE CONGRESS

I am pleased to transmit to the NCUA Board and the Congress the Office of
Inspector General’s (OIG) Semiannual Report for the period October 1, 2004
through March 31, 2005. This will be my first report since the NCUA Board
selected me as Inspector General on April 8, 2005.

I have a vision for the OIG as we embark on this new chapter. My vision is to
make the OIG an integral, yet independent part of the organization. I believe that
the NCUA and the OIG share a common goal – the successful accomplishment of
the agency’s mission. We will support the NCUA’s mission of monitoring and
promoting safe and sound federally insured credit unions by conducting
independent audits, investigations, and other activities, and by keeping the Board
and Congress fully and currently informed of our work.

During this past reporting period, the OIG issued its report on the King Street
Station Parking Garage, of which the NCUA is one of five owners. Our report
made 13 recommendations to assist the NCUA in its oversight and monitoring of
parking garage operations. The NCUA has already appointed a contracting
officer’s technical representative to administer and monitor the parking garage
contract. We issued an audit memorandum containing our analysis of a referral
from the field alleging that preventive controls in the credit union call report
process may have been circumvented. In addition, the financial audit report for
the year ending December 31, 2004, rendered unqualified opinions for each of the
NCUA’s four financial funds. Also during this period, we issued our draft report
for comment on the NCUA’s Process for Reviewing Federally Insured State
Chartered Credit Unions.

On the investigative side, we continue to work to provide objective and
independent investigations and to work to detect and prevent illegal and/or
improper activities involving NCUA programs, operations, and personnel.
During this reporting period we closed a proactive investigation into employee
misuse of government-issued computers to access and view internet pornography.
We also closed several other investigations and inquiries involving issues such as:
sexual harassment; false allegations; false statements; and misuse of funds.


                                         i
OIG Semiannual Report                                                     March 2005



I wish to express my appreciation to the NCUA Board, as well as to the senior
management of the agency, for their support over the past six months to the
mission of this Office. I also want to express my appreciation for the
accomplishments and support of all OIG employees and commend them for their
continued professionalism, dedication, and willingness to accept new challenges
as we move forward under new leadership.

I would like to close by reiterating that the OIG is committed to continuing to
promote effective working relationships with the Board and agency managers and
helping the NCUA accomplish its mission in the challenging years ahead.




                                           William A. DeSarno
                                           Inspector General




                                      ii
OIG Semiannual Report                                                                                            March 2005


                                             TABLE OF CONTENTS

INSPECTOR GENERAL’S MESSAGE……………………………………………...                                                                                i

NCUA AND OFFICE OF INSPECTOR GENERAL MISSION STATEMENTS…...                                                                    1

INTRODUCTION……………………………………………………………………..                                                                                       2

NCUA ORGANIZATION CHART……...…………………………………………...                                                                                4

NCUA HIGHLIGHTS…...............................................................................................                5

FEDERALLY INSURED CREDIT UNION HIGHLIGHTS.......................................                                               7

LEGISLATIVE HIGHLIGHTS....................................................................................                     8

OFFICE OF THE INSPECTOR GENERAL................................................................                                9

          Audit Activity....................................................................................................   10

          Investigative Activity…….................................................................................            14

          Legislative and Regulatory Reviews……….....................................................                           16

TABLE I – REPORTS WITH QUESTIONED COSTS…………………...................                                                              18

TABLE II – REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT
TO BETTER USE.........................................................................................................         19

TABLE III – SUMMARY OF OIG ACTIVITY...........................................................                                 20

INDEX OF REPORTING REQUIREMENTS………………………………………..                                                                               21
OIG Semiannual Report                                             March 2005


                          MISSION STATEMENTS




                            THE NCUA MISSION
NCUA’s charge is to foster the safety and soundness of federally insured credit
unions and to better enable the credit union community to extend the availability of
financial services for provident and productive purposes to all who seek such
service, while recognizing and encouraging credit unions’ historical emphasis on
extension of financial services to those of modest means.

The NCUA’s mission is accomplished by managing the National Credit Union
Share Insurance Fund in an efficient and prudent manner through an effective
supervision program and a regulatory environment that encourages innovation,
flexibility and continued focus on attracting new members and improving financial
service to existing members.



        THE OFFICE OF INSPECTOR GENERAL MISSION
The OIG promotes the economy, efficiency, and effectiveness of NCUA programs
and operations, and detects and deters fraud, waste, and abuse, thereby supporting
the NCUA’s mission of monitoring and promoting safe and sound federally
insured credit unions.

We accomplish our mission by conducting independent audits, investigations, and
other activities, and by keeping the NCUA Board and the Congress fully and
currently informed of our work.




                                         1
OIG Semiannual Report                                                          March 2005


                                 INTRODUCTION


T
       he National Credit Union Administration (NCUA) was established as an
       independent, federal regulatory agency on March 10, 1970. The agency is
       responsible for chartering, examining, supervising, and insuring federal credit
       unions. It also insures state-chartered credit unions that have applied for insurance
and have met National Credit Union Share Insurance requirements. The NCUA is funded
by the credit unions it supervises and insures. As of December 31, 2004, the NCUA was
supervising and insuring 5,572 federal credit unions and insuring 3,442 state-chartered
credit unions, a total of 9,014 institutions. This represents a loss of 204 federal and 151
state-chartered institutions since December 31, 2003, for a total loss of 355 credit unions
nationwide.


                              Federally Insured Credit Unions



     12000
     10000
               4180    4062     3980
       8000                             3866     3735   3593     3442
       6000                                                                       FISCUs
       4000 6815                                                                  FCUs
                       6566     6336    6118     5953   5776     5572
       2000
           0
               1998    1999     2000    2001     2002   2003     2004

The NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-
year terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union Administration, including
the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and
the Community Development Revolving Loan Fund.

The National Credit Union Administration executes its program through its central office
in Alexandria, Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Austin, Texas; and Tempe, Arizona. The NCUA also operates the
Asset Management and Assistance Center (AMAC) in Austin, Texas. Please refer to the
NCUA organizational chart on page 4.

The NCUA Board adopted its 2005 budget of $147,996,144 on November 18, 2004. The
Full-Time Equivalent (FTE) staffing authorization for 2005 is 961, a reduction of 2
positions over the 2004 total of 963.



                                             2
OIG Semiannual Report                                                               March 2005



                                       NCUA Budget Dollars

       Millions
           160
           140
           120
           100
            80
            60
            40
            20
             0
                  1998      1999      2000      2001     2002      2003   2004    2005




                                    N C U A A u th o riz e d S ta ff
    1200

    1000

     800

     600

     400

     200

       0
           1998      1999          2000      2001       2002       2003    2004     2005




                                                  3
OIG Semiannual Report                      March 2005


                 NCUA ORGANIZATION CHART




                            4
OIG Semiannual Report                                                       March 2005



                             NCUA HIGHLIGHTS

NCUA BOARD NAMES WILLIAM DESARNO INSPECTOR GENERAL

On April 8, 2005, the NCUA Board selected William DeSarno as the NCUA’s Inspector
General. Mr. DeSarno had been serving as the Acting Inspector General since December
2004. DeSarno began his NCUA career in 1997 as the Assistant Inspector General for
Audits. He was named Deputy Inspector General in 2001. Prior to joining the NCUA,
DeSarno served seven years with the Department of Treasury’s OIG and 18 years with
the General Accounting Office. He has over 14 years management experience in the
inspector general field and over 20 years experience supervising auditors. His federal
service began with the Army, where he served in Vietnam. Overall, his government
career spans over 36 years.


NCUA CHAIRMAN JOHNSON PROPOSES PROMPT CORRECTIVE ACTION
REFORM

Chairman JoAnn Johnson released a draft report, Prompt Corrective Action Proposal for
Reform, dated February 23, 2005, recommending statutory changes, including the
NCUA’s design for a new risk-based system for federally insured credit unions. The
proposed changes are designed to achieve comparability with the capital standards for
FDIC-insured institutions by eliminating disparate differences in the standards. Overall,
the NCUA is recommending a more risk-based PCA system for federally insured credit
unions that, if adopted, would result in a more robust, yet not unduly burdensome or
constraining PCA system.

NCUA BOARD MEMBER MATZ URGES CREDIT UNIONS TO KNOCK OUT
PREDATORY LENDERS

NCUA Board Member Deborah Matz spoke to 4,000 conferees at the Credit Union
National Association’s Governmental Affairs Conference on March 1, 2005, suggesting
that credit unions “look beyond banks and challenge other, perhaps more menacing,
opponents—predatory lenders.” Matz pointed to credit unions that are offering
alternatives to predatory lending, and demonstrated how credit unions benefit from
offering innovative alternatives. She further noted several credit unions that have
increased membership by 20-30% after reaching out to underserved consumers.

CREDIT UNION CONVERSION RULE FINALIZED

At a Board meeting on January 13, 2005, the NCUA finalized a rule providing that before
a conversion vote takes place, credit unions seeking to convert to mutual savings banks
must provide their members disclosures statements drafted by the agency. The four
disclosures caution credit union members that converting to the mutual thrift charter


                                           5
OIG Semiannual Report                                                       March 2005

could dilute their voting rights and might lead to a further conversion, from mutual to
stock ownership, and ultimately to the institution’s outright sale. NCUA Chairman
Johnson said the rule would “call to each member’s attention critical attention needed to
understand the conversion.”

NCUA JOINS FEDERAL BANK REGULATORY AGENCIES IN ISSUING
GUIDANCE ON OVERDRAFT PROTECTION PROGRAMS

On February 18, 2005, the NCUA joined federal bank regulatory agencies in issuing joint
final guidance to assist insured depository institutions in the disclosure and
administration of overdraft protection programs. The final joint guidance contains three
primary sections: Safety and Soundness Considerations; Legal Risks; and Best Practices.
The guidance is being issued by the Federal Reserve Board, the Federal Deposit
Insurance Corporation, the NCUA, and the Office of the Comptroller of the Currency.




                                           6
OIG Semiannual Report                                                          March 2005



    FEDERALLY INSURED CREDIT UNION HIGHLIGHTS


C
       redit unions submit quarterly call reports (financial and operational data) to
       NCUA. An NCUA staff assessment of the December 31, 2004, quarterly call
       reports submitted by all federally insured credit unions found that virtually all key
       financial indicators were stable.


KEY FINANCIAL INDICATORS STABLE

Looking at the December 31, 2004 quarterly statistics for major balance sheet items and
key ratios shows the following for the nation’s 9,014 federally insured credit unions:
assets grew 6.0 percent, or $36.9 billion; net worth to assets ratio increased from 10.7 to
11.0 percent; the loan to share ratio increased from 71.2 percent to 74.5 percent; the
delinquency ratio decreased from .76 to .72 percent; and credit union return on average
assets decreased from .99 percent to .92 percent.


SAVINGS INCREASED

Total share accounts increased 5.3 percent, or $27.8 billion. Regular shares comprise 36
percent of total share accounts; share certificates comprise 23 percent; money market
shares comprise 18 percent; share draft accounts comprise 13 percent; and 10 percent is
in other share accounts.


LOANS AND INVESTMENTS ALSO INCREASED

Loan growth of 10.13 percent resulted in an increase in total loans by $38.1 billion. First
mortgage real estate loans increased 10.4 percent; used auto loans increased 4.2 percent;
other real estate loans increased 23.8 percent; unsecured credit card loans increased 3.5
percent; all other unsecured loans increased .3 percent; new auto loans increased 11.8
percent; and all other loans increased 11.3 percent. First mortgage real estate loans are
the largest single asset category with $129.8 billion accounting for 31 percent of all loans.
Total investments decreased $1.1 billion or .7 percent. Investments with maturities less
than one year account for 48.27 percent of all credit union investments.




                                             7
OIG Semiannual Report                                                          March 2005



                       LEGISLATIVE HIGHLIGHTS


BANKRUPTCY BILL REFERENCES FEDERAL CREDIT UNION ACT

After passage by the House and Senate in recent weeks, S-256, the “Bankruptcy Abuse
Prevention and Consumer Protection Act of 2005” has been sent to President Bush who
reportedly plans to sign it shortly. Title IX of both the House and Senate bills in the 109th
Congress now make the appropriate references to the Federal Credit Union Act (FCU
Act) as a result of an NCUA amendment offered and accepted on the House floor in the
108th Congress (in 2003) by former Representative Patrick Toomey (R-PA) and
Representative Brad Sherman (D-CA) that revised the legislation with respect to the
termination and netting of financial contracts for federally insured credit unions. That
bill, HR 975, was re-introduced as passed by the House in the 108th Congress in both the
House and Senate in the 109th Congress as S. 256 and HR 685.

HOUSE PANEL APPROVES CREDIT UNION MEASURE

On a voice vote, the House Financial Services Committee on March 16, 2005, approved
the bipartisan “Expanded Access to Financial Services Act of 2005” that would authorize
federally chartered credit unions to provide international remittances, domestic wire
transfers, and check-cashing services to nonmembers eligible for membership. Rep. Brad
Sherman (D-CA) and Rep. Jim Gerlach (R.-PA) sponsored the bill, which is identical to a
bill introduced in 2003 by Rep. Doug Ose, a California Republican who retired last year.

CONGRESSMEN INTRODUCE                     BILL     PRESERVING          CREDIT       UNION
CAPITAL IN MERGERS

On March 2, 2005, Rep. Spencer Bachus (R-AL) and Bernard Sanders (I-VT), along with
a number of other Congressmen, introduced H.R. 1042, the “Net Worth Amendment for
Credit Unions Act.” The legislation would amend the FCU Act to provide for continued
recognition of premerger “retained earnings” should the Financial Accounting Standards
Board (FASB) eliminate the current “pooling method” and begin requiring an
“acquisition method” of accounting for mergers by mid-2006. Chairman Johnson
testified on this issue on April 13, 2005, before the House Financial Institutions and
Consumer Credit Subcommittee.




                                             8
OIG Semiannual Report                                                                      March 2005



                 OFFICE OF THE INSPECTOR GENERAL


T     he Office of the Inspector General was established at the NCUA in 1989 under the
      authority of the Inspector General Act of 1978, as amended in 1988. The staff
      consists of the Inspector General, Assistant Inspector General for Audits, Counsel
to the Inspector General, Director of Investigations, two Senior Auditors, Senior
Information Technology Auditor, and Office Manager.

The Inspector General reports to, and is under the general supervision of, the NCUA
Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all NCUA
   programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations as
   well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their impact
   on the economic and efficient administration of agency programs; and

4. Keeping the NCUA Board and the Congress apprised of significant findings and
   recommendations.

                                                           William A. DeSarno
                                                            Inspector General




                                              Vacant
                                          Office Manager




                                    Vacant                                           Sharon Separ       Anne Voegele
                              Asst IG for Audits                                    Counsel to the IG     Director of
                                                                                                        Investigations



  Charles Funderburk, CPA   Dwight Engelrup, CPA            Tammy Rapp, CPA, CISA
         Sr Auditor              Sr Auditor                     Sr IT Auditor




                                                   9
OIG Semiannual Report                                                       March 2005



                               AUDIT ACTIVITY
AUDIT REPORTS ISSUED

Review of The King Street Station Parking Garage
OIG-04-07 December 8, 2004

The King Street Station complex consists of four office buildings, a hotel and
retail/restaurant building. The National Credit Union Administration, as one of five
owners, is entitled to one vote on matters pertaining to the parking garage operation.
Net income resulting from parking garage revenue is divided among the five complex
owners according to the percentage of parking garage space owned by each. These
interests range from a low of 3.54 percent to a high of 32.72 percent, the latter
representing the NCUA’s share. As the party with the largest ownership interest in the
parking garage, the NCUA has a greater financial incentive to assume a leadership role in
negotiating any changes to or improvements of the parking garage operations.

The NCUA Chief Financial Officer had expressed concern to the Inspector General that
revenue reports for the parking garage had shown a declining net income trend for the
previous five years. In response to this concern and because the OIG had never reviewed
or audited the parking garage operations, we decided to conduct this audit. Our four
main objectives were to (1) determine whether the Office of the Chief Financial Officer’s
(OCFO) identification of a declining income trend for parking garage revenue was valid;
(2) assess internal controls over the parking garage income and expenses; (3) determine
whether the NCUA received its correct share of parking garage net income during the
period covered by the audit; and (4) review the reasonableness and current applicability
of the parking garage contracts and agreements.

The OCFO performed and provided to us some basic analyses suggesting an alarming
decline in parking garage net income since 1998. Our review and analysis supported a
declining trend, but demonstrated a flatter, less dramatic decline in garage net income
than reported by the OCFO.

We found that weak NCUA internal controls and inadequate oversight of the garage
operator’s financial reporting unnecessarily exposed the NCUA to potential fraud, waste,
and abuse. Because of the garage operator’s inconsistent and incomplete reporting, it
was not possible to identify the dollar amount of revenue, if any, that went either
uncollected or was not properly remitted to the NCUA.

Our review of the income and expense reports provided during the course of this audit
indicated that the NCUA had been receiving its correct share of reported parking garage
income. However, we were unable to conclude that this determination was reliable
because of the internal control weaknesses noted in the report.




                                           10
OIG Semiannual Report                                                        March 2005

The contract terms we reviewed relating to the King Street Station Parking Garage
appeared reasonable. However, there were some contractual areas which should be
addressed to clarify garage operating practices and/or to reduce risk exposure to the
NCUA and the other parking garage owners.

The report presented 13 recommendations to assist the NCUA in its oversight and
monitoring of parking garage operations. In general, the NCUA needs to view and treat
the parking garage operation as a financial business entity, exercising the same due
diligence and management oversight as it does over its other financial entities. The key
recommendation presented in this report is for the NCUA to officially designate a
qualified contracting officer’s technical representative (COTR), with the appropriate
financial expertise, to administer and monitor the parking garage contract. In responding
to a draft of this report, the NCUA’s Chief Financial Officer informed us that he had
already appointed the Deputy Financial Officer in OCFO’s Division of Financial Control
as the COTR for this contract.


Audit Memorandum: Analysis of Region V 5300 Call Report Referral
OIG-05-01 January 10, 2005

The NCUA’s Region V Director requested that the OIG look into a matter involving a
specific 5300 call report. Specifically, Region V was concerned about 5300 edit checks
that may have been overridden by an examiner and whether this might have occurred
with other call reports. The objective of our work was to determine whether a preventive
control in the 5300 call report upload process was circumvented and if this represented a
systemic problem.

Our review of historical documentation showed the examiner attempted to upload at least
five call reports for one credit union during the June 2004, call report cycle. Our review
of the documentation and interviews of key staff also indicated that all but two of these
uploads were rejected by the server. The first call report accepted by the server on July
25, 2004, appeared to represent March 2004, data with some adjustments. Although the
file did not accurately reflect June 2004, data, it was in the correct format and appeared
reasonable. The last call report accepted by the server on July 30, 2004, represented the
credit union’s June 2004, data.

We concluded that controls were effective and prevented 5300 data from being accepted
by the server that was in an unacceptable format. Although there were multiple attempts
to upload 5300 data, the server rejected all but two. Although the data was an estimate,
the first successful upload represented data in the correct format. The second upload that
was accepted by the server represented actual data in the correct format. In addition to
the server rejecting data in an unacceptable format, additional controls notified the OCIO
that there was a problem with this credit union’s 5300 call report transmission by their
examiner.




                                           11
OIG Semiannual Report                                                       March 2005

Our report suggested that the NCUA consider whether data modified outside of the 5300
program poses a material risk to 5300 data integrity. If the NCUA determines the risk is
significant, steps should be taken to determine the best solution for preserving data
integrity and preventing modification outside of the program.


NCUA Financial Statement Audits, dated March 15, 2005

Our contract accounting firm, Deloitte & Touche LLP, issued opinions on the 2004
financial statements of the National Credit Union Administration Operating Fund,
National Credit Union Share Insurance Fund, the Central Liquidity Facility, and the
Community Development Revolving Loan Fund. The auditors found that the financial
statements presented fairly the financial position of the agency’s funds as of December
31, 2004. The firm issued its opinions on March 15, 2005.

The NCUA Operating Fund (OIG-05-02) was established as a revolving fund managed
by the NCUA Board for the purpose of providing administration and service to the
federal credit union system. The auditors issued an unqualified opinion on the
Operating Fund’s financial statements. The Funds total assets for 2004 were $55.8
million, down from $64.4 million in 2003.

The National Credit Union Share Insurance Fund (OIG-05-03) was established as a
revolving fund managed by the NCUA Board to insure member share deposits in all
Federal credit unions and qualifying state credit unions up to $100,000 per shareholder
account. The auditors issued an unqualified opinion on the Share Insurance Fund’s
financial statements. The Fund’s total assets for 2004 were $6.4 billion, up from $6.2
billion in 2003.

The Central Liquidity Facility (OIG-05-04) was established as a mixed ownership
government corporation managed by the NCUA Board to improve general financial
stability by meeting the liquidity needs of credit unions. The auditors issued an
unqualified opinion on the CLF’s financial statements. The CLF’s total assets for 2004
were $1.4 billion, up from $1.2 billion in 2003.

The Community Development Revolving Loan Fund’s (OIG-05-05) purpose is to
stimulate economic activities in the communities served by low-income credit unions.
This in turn will result in increased income, ownership and employment opportunities for
low-wealth residents and other economic growth. The auditors issued an unqualified
opinion on the Fund’s financial statements. The CDRLF’s total assets for 2004 were
$15.1 million, up from $14.3 million in 2003.

The financial auditors did not find any matters considered to be material weaknesses in
their review of the Funds’ internal control structures pertinent to financial reporting.
However, during the performance of the audit, several observations and
recommendations were presented relating to internal control over financial reporting, and
certain other accounting, administrative, and operating matters.



                                           12
OIG Semiannual Report                                                         March 2005


AUDITS IN PROGRESS


Review of the NCUA’s Process for Reviewing Federally Insured State Chartered
Credit Unions

This review will determine the adequacy of the NCUA’s process for determining and
managing the risk that federally insured state chartered credit unions pose to the share
insurance fund. Our three review objectives are to: (1) determine whether the NCUA
process for determining and managing the risk that federally insured state chartered credit
unions pose to the share insurance fund is adequate; (2) determine whether the NCUA
varies its approach depending on the level of risk posed by the credit unions in a
particular state; and (3) determine whether the NCUA performs formal reviews of all
SSA examination reports and how the agency handles identified problems.

We have completed our review work and submitted a draft report to the NCUA, the
National Association of State Credit Union Supervisors, and selected State Supervisory
Authorities for comment.

Audit Survey of the National Credit Union Share Insurance Fund

The NCUA reports annually on losses to the share insurance fund. The objective of this
survey is to assess the accuracy and reliability of reported insurance fund losses. At the
completion of this survey, we will decide whether or not to proceed with a formal audit.



SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH CORRECTIVE
ACTION HAS NOT BEEN COMPLETED

As of March 31, 2005, there were no significant audit recommendations on reports issued
over six months ago that have not been either fully implemented or in the process of
implementation.




                                            13
OIG Semiannual Report                                                           March 2005




                         INVESTIGATIVE ACTIVITY


 I
      n accordance with professional standards and guidelines established by the
      Department of Justice, the OIG performs investigations of criminal, civil, and
      administrative wrongdoing involving agency programs and personnel. Our
      investigative program focuses on activities designed to promote economy,
effectiveness, and efficiency, as well as fighting fraud, waste, and abuse in agency
programs. In addition to our efforts to deter misconduct and promote integrity awareness
among agency employees, we investigate referrals and direct reports of employee
misconduct. Investigations may involve possible violations of regulations regarding
employee responsibilities and conduct, Federal criminal law, and other statutes and
regulations pertaining to the activities of NCUA employees.

Moreover, we receive complaints from credit union members and officials that involve
NCUA employee program responsibilities. We examine these complaints to determine
whether there is any indication of NCUA employee misconduct. If not, we refer the
complaint to the appropriate regional office for response, or close the matter if contact
with the regional office indicates that the complaint has already been appropriately
handled. Our investigations staff also handles the OIG Hotline for employees,
contractors, and others to report allegations of fraud, waste, abuse, and mismanagement
via a toll-free number, U.S. mail, or electronic mail.

During the last reporting period, the OIG reported on a completed proactive review of
potential employee misuse of government-issued computers to access and view internet
pornography. The review revealed that several employees were accessing internet
pornography websites. The OIG opened five individual cases. In our last semi-annual
report, we reported that one individual retired immediately as a result of the investigation,
but as of the end of the last reporting period, the agency was still considering action in the
other four cases. Of those remaining cases, one resulted in no formal action; one in a
letter of reprimand; one in a two day suspension; and in one case the employee resigned
after termination was proposed.



                         Investigative Operations

                             Matters/inquiries/investigations carried 6
                               forward from previous reporting period

                             Matters initiated during reporting period      2

                             Matters closed                                 5

                             Investigative reports issued                   2


                                              14
OIG Semiannual Report                                                         March 2005



                            Investigative Subpoenas issued               2

                            Matters referred back to the agency          1

                            Management Implication Reports issued        0

                            Matters remaining open                       3



CLOSED INVESTIGATIONS

During this reporting period, we closed five (5) matters.

One investigation involved allegations of sexual harassment lodged against an NCUA
examiner by two credit union employees, and counter allegations by the examiner that the
credit union’s CEO, whom the examiner had suspected of bankruptcy fraud and other
illegal actions, had attempted to bribe him with an offer of employment, and, failing that,
had suborned false allegations against him. The OIG investigation developed
considerable evidence regarding the credit union’s CEO which was reported to the
Department of Justice. The investigation was unable to conclusively prove or refute the
allegations of sexual harassment made against the examiner.

One investigation involved allegations made against an NCUA examiner by a credit
union official for having made an inflammatory and inappropriate statement during a
meeting with credit union officials. Based on interviews with witnesses and a review of a
tape recording of the meeting, the OIG determined no wrongdoing on the part of the
examiner.

One investigation involved allegations made by another government agency that an
NCUA examiner had made false statements and misused government funds. The
investigation found no wrongdoing on the part of the examiner. The investigation was
closed to the file.

The OIG completed a review of the agency’s home purchase and relocation program.

The OIG closed to file one matter concerning a possible privacy act violation.

During this reporting period, we received one (1) referral for investigation which was
declined for investigation and returned to the agency for appropriate action.




                                            15
OIG Semiannual Report                                                       March 2005



          LEGISLATIVE AND REGULATORY REVIEWS

Section 4(a) of the Inspector General Act requires the Inspector General to review
existing and proposed legislation and regulations relating to the programs and operations
of the NCUA and to make recommendations concerning their impact. Moreover, we
routinely review proposed agency instructions and other policy guidance, in order to
make recommendations concerning economy and efficiency in the administration of
NCUA programs and operations and the prevention and detection of fraud, waste and
abuse.

During the reporting period, the OIG reviewed 17 items, including proposed and final
changes to legislation and regulations and an NCUA Instruction. The OIG had no
comments on the items reviewed.

          SUMMARY OF STATUTES AND REGULATIONS REVIEWED
       Legislation                             Title
 Section 522        “Consolidated Appropriations Act of 2005”
 H.R. 1042          “Net Worth Amendment for Credit Unions Act”


 S. 394                   “Openness Promotes Effectiveness in Our National
                          Government Act of 2005”

 S. 2845 (Pub. L. No.     “Intelligence Reform and Terrorism Prevention Act”
 108-458).
 P.L. No. 108-277         “Law Enforcement Officers Safety Act of 2004”
  Regulations/Rulings                                 Title
 12 CFR Part 701          Proposed and Final Rule: “Loans to Members and Lines of
                          Credit to Members”
 12 CFR Section           Final Rule: “Loan Interest Rates”
 701.21(c)(7)(ii)(C)
 12 CFR Part 708a         Proposed and Final Rule: “Conversion of Credit Unions to
                          Mutual Savings Banks (MSB)”
 12 CFR Part 708b         Draft Final and Final Rule: “Mergers of Federally-Insured
                          Credit Unions; Voluntary Termination or Conversion of
                          Insured Status”
 12 CFR Part 712          Proposed Rule: “Audit Requirement for Credit Union Service
                          Organizations (CUSOs)”
 12 CFR Parts 717, 748    Final Rule: “Fair Credit Reporting—Proper Disposal of
                          Consumer Information under the Fair and Accurate Credit
                          Transactions Act of 2003”
 12 CFR Part 723          Proposed Rule with Request for Comments: “Member
                          Business Loans”



                                           16
OIG Semiannual Report                                                  March 2005


5 CFR Part 550          Interim Rule with Request for Comments: “Pay
                        Administration” (Travel Compensatory Time)
NCUA Instruction No.    Bank Secrecy Act Compliance
5001.06
                        NCUA Office of General Counsel 2004 Regulation Review
(69 Fed. Reg. 41202)    Summary of Comments: “Economic Growth and Regulatory
                        Paperwork Reduction Act Notice (EGRPRA)”
                        Summary of comments: Federal Credit Union Bylaws




                                       17
OIG Semiannual Report                                                        March 2005



                                      TABLE I

                    INSPECTOR GENERAL ISSUED REPORTS
                         WITH QUESTIONED COSTS

                                                   Number of   Questioned   Unsupported
                                                    Reports      Costs         Costs

A.     For which no management
       decision had been made by the                  0           $0              $0
       start of the reporting period.

B.     Which were issued during the
       reporting period.                              0            0              0

       Subtotals (A + B)                              0            0              0

C.     For which management decision
       was made during the reporting                  0            0              0
       period.

       (i) Dollar value of disallowed costs           0            0              0

       (ii) Dollar value of costs not                 0            0              0
       disallowed

D.     For which no management
       decision has been made by the end              0            0              0
       of the reporting period.

E.     Reports for which no management
       decision was made within six                   0            0              0
       months of issuance.


Questioned costs are those costs the OIG has questioned because of alleged violations of
laws, regulations, contracts, or other agreements; findings which at the time of the audit
are not supported by adequate documentation; or the expenditure for the intended purpose
is unnecessary or unreasonable.

Unsupported costs (included in "Questioned Costs") are those costs the OIG has
questioned because of the lack of adequate documentation at the time of the audit.




                                              18
OIG Semiannual Report                                                     March 2005



                                    TABLE II

               INSPECTOR GENERAL ISSUED REPORTS
      WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                           Number of          Dollar
                                                            Reports           Value

 A.    For which no management decision had been
       made by the start of the reporting period.               0               $0

 B.    Which were issued during the reporting period.           0               0

       Subtotals (A + B)                                        0               0

 C.    For which management decision was made
       during the reporting period.                             0               0

       (i) Dollar value of recommendations agreed to
       by management.                                          N/A             N/A

       (ii) Dollar value of recommendations not
       agreed to by management.                                N/A             N/A

 D.    For which no management decision was made
       by the end of the reporting period.                      0               0

 E.    For which no management decision was made
       within six months of issuance.                           0               0


Recommendations that "Funds to be Put to Better Use" are those OIG recommendations
that funds could be used more efficiently if management took actions to reduce outlays,
de-obligate funds from programs/operations, avoid unnecessary expenditures noted in
pre-award reviews of contracts, or any other specifically identified savings.




                                          19
OIG Semiannual Report                                          March 2005



                              TABLE III
                   SUMMARY OF OIG ACTIVITY
              OCTOBER 1, 2004 THROUGH MARCH 31, 2005

PART I – AUDIT REPORTS ISSUED
Report                                                      Date
Number     Title                                            Issued
OIG-04-07  Review of The King Street Station parking Garage 12/08/04
OIG-05-01  Audit Memorandum: Analysis of Region V 5300 Call 1/10/05
           Report Referral
OIG-05-02  Financial Audit: NCUA Operating Fund             3/31/2005
OIG-05-03  Financial Audit: Share Insurance Fund            3/31/2005
OIG-05-04  Financial Audit: Central Liquidity Fund          3/31/2005
OIG-05-05  Financial Audit: Community Development Revolving 3/31/2005
           Loan Fund

PART II – AUDITS IN PROGRESS (as of March 31, 2005)
           Review of NCUA’s Process for Reviewing Federally Insured State
           Chartered Credit Unions
           Audit Survey of the National Credit Union Share Insurance Fund




                                   20
OIG Semiannual Report                                               March 2005



             INDEX OF REPORTING REQUIREMENTS

 SECTION                       DATA REQUIRED                       PAGE REF
  4(a)(2)    Review of Legislation and Regulations                    16
  5(a)(1)    Significant Problems, Abuses, or Deficiencies            10
             relating to the administration of programs and
             operations disclosed during the reporting period.
  5(a)(3)    Recommendations with Respect to Significant              10
             Problems, Abuses, or Deficiencies.
  5(a)(3)    Significant Recommendations Described in Previous        13
             Semiannual Reports on Which Corrective Action Has
             Not Been Completed.
  5(a)(4)    Summary of Matters Referred to Prosecution              None
             Authorities and Prosecutions, Which Have Resulted.
  5(a)(5)    Summary of Each Report to the Board Detailing           None
             Cases Where Access to All Records Was Not
             Provided or Where Information Was Refused.
  5(a)(6)    List of Audit Reports Issued During the Reporting        20
             Period.
  5(a)(7)    Summary of Particularly Significant Reports.             10
  5(a)(8)    Statistical Tables on Audit Reports With Questioned      18
             Costs.
  5(a)(9)    Statistical Tables on Audit Reports With                 19
             Recommendations That Funds Be Put To Better Use.
  5(a)(10)   Summary of Each Audit Report Issued Before the          None
             Start of the Reporting Period for Which No
             Management Decision Has Been Made by the End of
             the Reporting Period.
  5(a)(11)   Description and Explanation of Reasons for any          None
             Significant Revised Management Decision Made
             During the Reporting Period.
  5(a)(12)   Information Concerning Significant Management           None
             Decisions With Which the Inspector General is in
             Disagreement.




                                        21
OIG Semiannual Report                                                       March 2005




                         WE WANT TO HEAR FROM YOU


                Call our toll-free hotline to report
                      fraud, waste, or abuse:

                           1-800-778-4806
                        WASHINGTON METRO AREA
                            703-518-6357

                                     or write:

               National Credit Union Administration
                  Office of the Inspector General
                         P.O. Box 25705
                   Alexandria, VA 22313-5705
       You may call ANONYMOUSLY, or request that YOUR call be kept
                          CONFIDENTIAL


  OIG reports and other information are now available via the Internet. The address is
                                  www.ncua.gov/oig




                                          22
